Nos. 19-368, 19-369
IN THE

&upreme Court of tJje

Otateo

FORD MOTOR COMPANY,
Petitioner,

v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al.,
Respondents.
FORD MOTOR COMPANY,
Petitioner,

v.
ADAM BANDEMER,
Respondent.
ON WRITS OF CERTIORARI TO THE SUPREME COURTS OF
MONTANA AND MINNESOTA

BRIEF OF AMICUS CURIAE INSTITUTE OF
INTERNATIONAL BANKERS IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,866 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 6, 2020.

( 2- /
Cohn Casey I gan
Wilson-Epes Printing Co., Inc.

